               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Bad Check Prevention and Collection

                        Audit Report




                                              January 10, 2012

Report Number FI-AR-12-002
                                                                       January 10, 2012

                                               Bad Check Prevention and Collection

                                                          Report Number FI-AR-12-002




IMPACT ON:
Bad check operations at the Accounts
Reconciliation Branch and Finance            WHAT THE OIG RECOMMENDED:
Branch in Eagan, MN, and at the              The U.S. Postal Service Office of
National Customer Service Center in          Inspector General (OIG) recommended
Memphis, TN.                                 the vice president, Controller, increase
                                             the bad check service fee to the national
WHY THE OIG DID THE AUDIT:                   retail median of $30.
Our objectives were to determine
whether U.S. Postal Service policies         WHAT MANAGEMENT SAID:
and procedures to prevent and collect        Management agrees with the
bad checks were effective and efficient      recommendation to increase the bad
and whether the process for collecting       check fee and monetary impact of
bad checks was cost effective.               $577,115. However, management
                                             disagrees that the fee increase will
WHAT THE OIG FOUND:                          reduce costs. Instead, they view the
Postal Service’s policies and procedures     increased fee as an offset to the cost of
to prevent and collect bad checks were       bad check acceptance. In addition,
effective and efficient. The Postal          management does not believe the
Service collected about 69 percent of        increased bad check fee will reduce the
bad check debt, and bad checks               number of bad checks. The bad check
represented 0.14 percent of retail check     fee increase will take effect by June 30,
payments, which was over seven times         2012.
better than the industry average of
1 percent. In addition, the collection       AUDITORS’ COMMENTS:
process for bad checks was cost              The OIG considers management’s
effective, and management has                comments responsive to the
decreased staffing to process and            recommendations, and the corrective
collect bad checks concurrently with bad     actions should resolve the issues
check volume. However, there is              identified in the report.
additional opportunity to decrease bad
check costs by increasing the bad check      Link to review the entire report
service fee to the national retail median.
January 10, 2012

MEMORANDUM FOR:             TIMOTHY F. O’REILLY
                            VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Bad Check Prevention and Collection
                            (Report Number FI-AR-12-002)

This report presents the results of our audit of the U.S. Postal Service’s bad check
prevention and collection (Project Number 11BD007FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director, Policy
Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Ellis A. Burgoyne
    Pritha Mehra
    Corporate Audit and Response Management
Bad Check Prevention and Collection                                                                                      FI-AR-12-002



                                             TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Bad Check Service Fees..................................................................................................... 1

Recommendation ................................................................................................................ 2

Management’s Comments .................................................................................................. 2

Evaluation of Management’s Comments ............................................................................ 2

Appendix A: Additional Information..................................................................................... 3

   Background ...................................................................................................................... 3

   Objectives, Scope, and Methodology ............................................................................. 4

   Prior Audit Coverage ....................................................................................................... 5

Appendix B: Monetary and Other Impacts ......................................................................... 6

Appendix C: Management’s Comments ............................................................................. 7
Bad Check Prevention and Collection                                                                 FI-AR-12-002



Introduction

This report presents the results of our audit of the U.S. Postal Service’s bad check
prevention and collection process (Project Number 11BD007FF000). This self-initiated
audit addresses financial risk. Our audit objectives were to determine whether Postal
Service policies and procedures to prevent and collect bad checks were effective and
efficient and whether the process in place for collecting bad checks was cost effective.
See Appendix A for additional information about this audit.

Postal Service customers can pay for products and services using cash, debit/credit
cards, money orders, and checks. While paying by check is convenient for customers,
there is a risk associated with check acceptance. Occasionally, the account on which
the check is drawn has nonsufficient funds available, resulting in a delay or loss of funds
transferred to Postal Service accounts. The Postal Service receives more than
$20 million in bad checks annually. To help prevent bad check acceptance and collect
bad check funds, the Postal Service automated the manual bad check identification
process at Point of Service (POS) post offices 1 in March 2009. 2 The Postal Service and
its contracted collection agency record all bad checks and collection results in the
Return Check Management System (RCMS). Between fiscal years (FYs) 2008 and
2011, the number of bad checks received declined significantly due to the decrease in
customer check use and the automation of the bad check identification process in the
POS system. See Chart 1 in Appendix A for details of the decline.

Conclusion

The Postal Service’s policies and procedures to prevent and collect bad checks were
effective and efficient. In FY 2011, the Postal Service collected about 69 percent of bad
check debt, and bad checks represented 0.14 percent of retail check payments, which
was over seven times better than the industry average of 1 percent. In addition, we
determined the collection process for bad checks was cost effective, and that staffing to
process and collect bad checks has decreased concurrently with bad check volume.
However, there is additional opportunity to decrease bad check costs by increasing the
bad check service fee to the national retail median.

Bad Check Service Fees

The Postal Service charges customers a $25 bad check fee while other major retailers
have increased their bad check fees to $30. According to management, each
state/jurisdiction has its own laws and regulations for calculating bad check damages; 3
consequently, the Postal Service elected to establish a standardized bad check fee of


1
  Post offices use the POS hardware and software system to conduct sales transactions during the Post Office
checkout process.
2
  Effective March 7, 2009, management enhanced customer check acceptance functionality in the POS systems to
include the Bad Check List file.
3
  Depending on jurisdiction, bad check writers can be assessed bank charges, interest, attorney fees, and other
damages.
                                                        1
Bad Check Prevention and Collection                                                            FI-AR-12-002



$25. According to a study released in August 2010, 4 national retail merchants have
raised the median bad check fee by 20 percent from 2009. In addition, Postal Service
management stated the fee has remained at $25 because that is the amount in the
collection agency contract. The current collection agency’s contract is set to expire in
February 2012. Increasing the bad check service fee nationally in conformance with
retail industry standards could have reduced costs by about $185,000 annually in FY
2010 and 2011. In addition, raising bad check fees to $30 could reduce costs by an
estimated $100,000 annually over the next 2 years. See Appendix B for details on
monetary impact.

Recommendation

We recommend the vice president, Controller:

1. Increase the bad check service charge to the national retail median of $30.

Management’s Comments

Management agreed with the recommendation to increase the bad check fee and with
the monetary impact of $577,115. However, management disagreed that the fee
increase will reduce costs. Instead, they view the increased fee as an offset to the cost
of bad check acceptance. In addition, management did not believe the increased bad
check fee will reduce the number of bad checks. The bad check fee increase will take
effect by June 30, 2012. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation, and corrective action should resolve the
issue identified in the report. Regarding management’s concern about the
characterization of the increase in bad check fees, we are in agreement that the
increased fee will have a positive impact on the cost of bad check acceptance. Further,
based on our research, there are industry studies suggesting that raising fees deter
behaviors. Thus, we believe raising bad check fees will reduce the number of bad
checks.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. The recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




4
 Moebs Services, “Retailers Charge for Bounced Checks Surpasses Banks/Credit Union NSF Fees, August 10,
2010.”



                                                     2
Bad Check Prevention and Collection                                                                   FI-AR-12-002



                                Appendix A: Additional Information

Background

The Postal Service receives more than $12 billion in check payments and about $20
million in bad checks annually. Personnel processed bad checks at three units: the
Accounts Reconciliation and Finance Branches at the Information Technology and
Accounting Service Center (IT/ASC) in Eagan, MN, and the National Customer Service
Center (NCSC) in Memphis, TN. The Accounts Reconciliation Branch processed bad
checks from retail locations such as post offices and business mail entry units. The
Finance Branch processed bad checks from lockbox customers. The NCSC processed
bad checks payments received for licensing fees, address management system
updates, and other postal services. In FY 2011, the number of bad checks processed by
each group ranged from one to more than 55,000. See Table 1 for bad checks
processed each year by each group.

                    Table 1: Number of Bad Checks Processed By Group

                            Number of Bad Checks Processed
                          Accounts
         Fiscal                          Finance
                        Reconciliation                 NCSC                                   Total
          Year                            Branch
                           Branch
      FY 2009               82,178         1,028         1                                     83,207
      FY 2010               67,996         1,166         2                                     69,164
      FY 2011               55,578           888         1                                     56,467
     Total                 205,752         3,082         4                                    208,838
    Source: Postal Service Return Check Management System and POS system.


Accounting Services 5 is responsible for collection and resolution of all checks returned
from Postal Service bank accounts. Accounting Services personnel send nonsufficient
funds checks valued at less than $5,000 to a collection agency to pursue and attempt
collection. Accounting Services personnel pursue and attempt collection of nonsufficient
checks greater than $5,000 and all other types of bad checks, such as stop payment
and account closed. After 37 days, 6 if Accounting Services personnel are unable to
collect on the bad checks, they forward the uncollected checks to a collection agency to
pursue. In addition, personnel must record all bad checks in RCMS. 7 The RCMS
maintains detailed information on each bad check, such as customer’s name, check
amount, check date, bank account number, reason for not clearing, and amount
collected. The Accounts Reconciliation Branch is on the web-based RCMS, whereas
the Finance Branch is on the old stand-alone RCMS. Information Technology is merging
the Finance Branch’s RCMS into the Accounts Reconciliation Branch’s web-based
RCMS. The system merger is in the test phase, and management expects completion
by December 31, 2011.

5
  Accounting Services manages accounting processes and procedures for the Postal Service.
6
  Customers have 30 days to repay bad checks, and 7 additional days are included for receipt of payment.
7
  Handbook F-1- Accounting and Reporting Policy, Section 3-1.3.2, March 2011.



                                                         3
Bad Check Prevention and Collection                                                               FI-AR-12-002



Accounting Services monitors customers who present bad checks and generates a
national bad check list. Accounting Services removes customers from the bad check list
once they have paid their debt. On March 7, 2009, management implemented the
electronic bad check list at retail units using the POS system functionality, allowing units
to compare the customer’s check against the electronic bad check list during the
endorsement process. The system updates the electronic listing nightly, and Accounting
Services sends hard copy reports to Integrated Retail Terminal 8 and Money Order
Voucher Entry System 9 units monthly. Between FYs 2008 and 2011, the number of bad
checks received declined significantly. Management attributed the decline in bad checks
to the decrease in customer check use and the automation of the bad check
identification process in the POS system. See Chart 1 for more details.

    Chart 1. Number of Returned Checks Received Between FYs 2008 and 2011




            Source: Postal Service Return Check Management System


Objectives, Scope, and Methodology

The objectives of our audit were to determine whether Postal Service policies and
procedures to prevent and collect bad checks are effective and efficient and whether the
process for collecting bad checks is cost effective. To accomplish our objectives, we:

   Interviewed finance, accounting, and information technology personnel at Postal
    Service Headquarters, the IT/ASC in Eagan, MN; and the NCSC in Memphis, TN.
   Interviewed Federal Reserve Board management about the check-clearing process.
   Obtained and reviewed bad check data for FYs 2008 through 2011.


8
 The first-generation sales transaction system used at select Postal Service facilities.
9
 A web-based system developed to aid in processing manual Postal Service Forms 1412, Daily Financial Report,
Account Identifier Codes entries, and money order vouchers.


                                                       4
Bad Check Prevention and Collection                                              FI-AR-12-002



    Observed technicians sorting bad checks, recording bad check data into RCMS, and
     preparing customer notification letters at the Accounts Reconciliation Branch in
     Eagan, MN.
    Observed the check acceptance process at three Postal Service facilities. 10
    Evaluated bad check operating procedures and staffing levels.
    Researched generally accepted bad check policies and procedures.
    Researched new bad check technologies.

We conducted this audit from October 2010 through January 2012 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management on December 6, 2011, and included their comments
where appropriate.

We assessed the reliability of RCMS data by interviewing agency officials
knowledgeable about the system and through observations of the data entry process.
We determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objectives of this
audit.




10




                                             5
Bad Check Prevention and Collection                                                                      FI-AR-12-002



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

            Finding                                            Impact Category              Amount
            Bad Check Service Fees                            Questioned Costs 11           $577,115

Increasing the bad check service fee for nonsufficient funds from $25 to $30 could have
reduced costs by $204,375 in FY 2010 and $165,065 in FY 2011. For FYs 2012 and
2013, we used linear regression analysis 12 on the moving average of the number of bad
checks to estimate cost reductions of $207,675.




11
   Questioned costs are unnecessary, unreasonable, or unsupported costs or an alleged violation of law, regulation,
or contract. These costs may be recoverable or unrecoverable and are usually a result of historical events.
12
   Linear regression is the method of estimating the conditional expected value of one variable y given the values of
some other variable or variables x.



                                                          6
Bad Check Prevention and Collection                           FI-AR-12-002



                          Appendix C: Management’s Comments




                                          7
